REPORT ON THE DEPARTMENT'S REPORTING OF
OCCUPATIONAL INJURIES AND ILLNESSES

TABLE OF
CONTENTS


              Safety Performance


              Details of Finding............................................................. 1

              Recommendations and Comments ................................. 4


              Appendices

              1. Objective, Scope, and Methodology .......................... 6

              2. Prior Reports.............................................................. 8

              3. Example of Data Issues ............................................. 9

              4. Management Comments.......................................... 10
Safety Performance

Safety Reporting     To accumulate injury and illness data from facilities
                     throughout its complex, the Department uses the
                     Computerized Accident/Incident Reporting System
                     (CAIRS). Data is recorded on a case-by-case basis and
                     includes information such as the number of recordable
                     injuries and illnesses, days away from work, days of
                     restricted work activity, and the total number of hours
                     worked at the Department's sites. Despite specific
                     reporting requirements, our testing revealed that CAIRS
                     data for selected contractors was not always accurate or
                     complete. Specifically, we observed discrepancies between
                     contractor records and CAIRS data. Further we noted a
                     major Environmental Management contractor that was not
                     required to report information to the Department. Detailed
                     information on reporting problems and the specific
                     contractors involved is presented in Appendix 3.

                                      Data Discrepancies

                     A comparison of data maintained by the Department to
                     records held by the selected prime contractors revealed
                     inconsistencies and reporting problems. Our testing
                     disclosed that CAIRS did not always accurately reflect the
                     number of days away from work, days of restricted work
                     activity, or lost work day cases. For instance:

                       •    In 2002, Bechtel BWXT Idaho, the contractor at the
                            Idaho National Engineering and Environmental
                            Laboratory, recorded 463 days away from work
                            while CAIRS reflected only 166 days.

                       •    In 2002, Bechtel National Incorporated, the
                            contractor for the Waste Treatment and
                            Immobilization Plant at the Hanford Site, recorded
                            actual days of restricted work activity of 1,113 days
                            while the Department's system listed 552 days.

                       •    For several contractors, not all recordable cases
                            were reported in CAIRS. For example, in 2002,
                            BWXT Y-12 reported a total of 39 lost workday
                            cases while the CAIRS system listed only 35 such
                            cases.

                     In addition, at one of the contractors visited we noted that
                     records (OSHA required illness and injury records
                     generically known as "OSHA logs") were incomplete,


Page 1                                                     Details of Finding
______________________________________________________________________________

                             resulting in an understatement of recordable injuries. A
                             comparison of workers' compensation claims to contractor
                             safety records at CH2M Hill Hanford Group revealed eight
                             claims that were not correctly reported for the period
                             January 1, 2000, to March 31, 2003. Specifically, the
                             contractor reported 149 recordable cases for this period, but
                             should have reported 157 cases, an error rate of about five
                             percent. When we brought these cases to the attention of
                             CH2M Hill, contractor personnel reviewed them and
                             agreed that they should have been treated as recordable
                             events. The cases were subsequently corrected and
                             changes were made to CAIRS, where appropriate, during
                             August 2003.

                                        Contractor Reporting Requirement

                             In addition to the ten contractors at which we performed
                             detailed test work, we also noted one contractor that was
                             not required to report occupational injuries and illnesses to
                             the Department. The organization involved was a so-called
                             "privatization contractor" that performed remediation work
                             for the Office of Environmental Management and its
                             contract did not contain provisions requiring reporting to
                             CAIRS. However, the Department recently began
                             modifying this type of contract to require the submission of
                             safety data. For example, in September 2003, the
                             Department modified the Foster Wheeler contract in Oak
                             Ridge to require that occupational injury data be submitted
                             to the Department. As of the date of our review, however,
                             similar action had not been taken with regard to its major
                             clean-up contract with BNFL in Idaho.

Quality Assurance            Inaccurate reporting of health and safety information
                             occurred because of weaknesses in the Department's quality
                             assurance process over injury and illness reporting.
                             Specifically, errors were not promptly corrected, and there
                             was no standard procedure for the Department or its
                             contractors to reconcile data between CAIRS and the
                             OSHA logs.

                                              Error Correction

                              The Department's process for correcting errors was not
                              always effective. We noted circumstances where errors
                              with CAIRS data were identified at field activities and
                              corrections submitted to the Office of Environment, Safety



Page 2                                                             Details of Finding
______________________________________________________________________________

                             and Health, yet the changes were not reflected in CAIRS.
                             For instance, during a review of safety data in April 2003,
                             the Idaho Operations Office noted that CAIRS did not have
                             the accurate number of days away from work for a
                             recordable case. Specifically, a case that the contractor had
                             reported to the Department in the fourth quarter of 2002 did
                             not appear in CAIRS. This data was re-submitted in April
                             2003 but CAIRS was not corrected until February 2004.

                                               Data Reconciliation

                              Procedures in place at the time of our audit also did not
                              require regular and consistent reconciliation of injury and
                              illness data. In fact, reconciliation of the data on the
                              system varied significantly in frequency and quality. For
                              example, at the Idaho National Engineering and
                              Environmental Laboratory, the Department and the
                              contractor conducted quarterly data reviews. Any
                              discrepancies between the data on the contractor's system
                              and the Department's database were noted and changes
                              submitted to CAIRS. In contrast, CH2M Hill Hanford
                              Group had not performed reconciliation of its data prior to
                              our audit. Further, although the Department's
                              Environment, Safety and Health personnel investigate
                              anomalies in the data, they did not reconcile or validate the
                              injury and illness information submitted by contractors. In
                              addition, CH2M Hill did not routinely reconcile data
                              contained in workers' compensation logs to either OSHA
                              logs or CAIRS.

Safety Statistics             For a number of years, the Department has focused on
                              worker safety as a priority. Reliable site and complex-wide
                              injury and illness performance data is critical to
                              determining whether its worker safety programs are
                              achieving the desired result. This review suggests that
                              more needs to be done to enhance the collection of
                              complex-wide worker injury and illness data.

Recent Policy Changes         Shortly after issuance of our draft report, the Department
                              published the Environment, Safety and Health Reporting
                              Manual (DOE Manual 231.1-1A of March 19, 2004). As
                              noted in management's response to our draft report, this
                              manual, if fully implemented, should address a number of
                              the data quality concerns identified in our report.
                              Procedures for performing annual reconciliation of




Page 3                                                               Details of Finding
______________________________________________________________________________

                              data sources, electronic data entry requirements, local error
                              correction capabilities, and clarification of roles and
                              responsibilities are key features of the manual. While the
                              manual is an important step, in our opinion, several
                              additional actions are necessary to correct existing errors
                              and ensure that data integrity is maintained in the future.


RECOMMENDATION                We recommend that the Assistant Secretary for
                              Environment, Safety and Health:

                                 1. Revise policy to improve the accuracy and
                                    usefulness of data in CAIRS by requiring quarterly
                                    reconciliation of the various sources of contractor
                                    data with CAIRS; and,

                                 2. In coordination with the Assistant Secretary for
                                    Environmental Management, incorporate safety
                                    reporting requirements into existing privatization
                                    contracts.


MANAGEMENT                    The Department's Deputy Assistant Secretary for
COMMENTS                      Environment, Safety and Health generally concurred with
                              our recommendations. Management, however, believed
                              that our report overstated the implications of CAIRS data
                              errors and that the discrepancies identified would not
                              materially affect assessment of safety performance.


AUDITOR                       Management comments, included in their entirety in
COMMENTS                      Appendix 4, are responsive to our recommendations.
                              Despite management's assertion, however, we remain
                              concerned that data quality problems such as those
                              observed during our audit have the potential to materially
                              affect the accuracy of occupational illness and injury safety
                              indicators. As noted on the Department's CAIRS website,
                              maintenance of such information is important because it is
                              used:

                                 "…to perform various analyses, including developing
                                 trends and identifying potential hazards. The results of
                                 these analyses can be used to evaluate safety and health
                                 performance, to analyze causes of inadequate
                                 performance, to define and prioritize means for
                                 improvement of safety and health performance, and to



Page 4                                            Recommendations and Comments
______________________________________________________________________________

                                 determine needs for modification of DOE safety and
                                 health requirements in order to reduce the probability of
                                 future accidents."

                              Such information is, in our opinion, critical to ensuring that
                              the Department's safety programs are preserving the health
                              of its contractor workforce.

                              In a draft version of this report, we included a discussion of
                              a safety performance metric known as the Safety Cost
                              Index. We deleted this issue from the final report because
                              we learned that the Department no longer relies on it.




Page 5                                            Recommendations and Comments
Appendix 1


OBJECTIVE     The objective of this audit was to determine whether
              CAIRS was adequately maintained.


SCOPE         The audit was performed from May 19, 2003, to
              November 24, 2003, at the Idaho Operations Office and
              Bechtel BWXT Idaho, LLC in Idaho Falls, Idaho; the
              Richland Operations Office, Office of River Protection,
              Fluor Hanford, CH2M Hill Hanford Group, and Bechtel
              National Incorporated in Richland, Washington; the Oak
              Ridge Operations Office, BWXT Y-12, BNFL-ETTP, UT-
              Battelle, and Bechtel Jacobs in Oak Ridge, Tennessee; the
              Savannah River Operations Office, Bechtel Savannah River
              and Westinghouse Savannah River Company in Aiken,
              South Carolina; and, the Office of Environment, Safety,
              and Health in Washington, D.C. The audit scope was
              limited to the reporting of injuries and illnesses from
              January 1, 2000, to March 31, 2003.



METHODOLOGY   To accomplish the audit objective, we:

                •    Obtained and reviewed contractor Occupational
                     Safety and Health Administration logs, injury and
                     illness case files, workers' compensation logs, and
                     data maintained in the Department's Computerized
                     Accident/Incident Reporting System;

                •    Researched Federal and Departmental regulations,
                     policies and procedures;

                •    Reviewed findings from prior audit reports
                     regarding reporting of occupational injuries and
                     illnesses;

                •    Assessed internal controls and performance
                     measures established under the Government
                     Performance and Results Act of 1993; and,

                •    Interviewed Department and contractor safety
                     personnel.




Page 6                              Objective, Scope, and Methodology
Appendix 1 (continued)

                         In pursuing our audit objective, we concentrated on an
                         analysis of quantitative information on employee
                         occupational injuries and illnesses, using the OSHA
                         definition of recordable incidents as our basis. However, it
                         should be noted that the OSHA guidelines include wide
                         variation in severity of employee injuries and illnesses—
                         ranging from relatively minor work related injuries (such as
                         a laceration) to a fatality. We did not evaluate the relative
                         severity of each of the incidents nor did we review medical
                         records maintained by the attending physicians. Our
                         analysis consisted of comparing data in CAIRS as of July
                         2003 to records maintained by the contractors, including
                         injury and illness data documented in contractors' OSHA
                         logs and supporting case files. We also performed limited
                         procedures to determine whether the contractors' records
                         were accurate, such as comparing workers' compensation
                         logs to OSHA logs.

                         The audit was performed in accordance with generally
                         accepted Government auditing standards for performance
                         audits and included tests of internal controls and
                         compliance with laws and regulations to the extent
                         necessary to satisfy the audit objective. Specifically, we
                         tested controls with respect to the Department's reporting of
                         injuries and illnesses. Because our review was limited, it
                         would not necessarily have disclosed all internal control
                         deficiencies that may have existed at the time of our audit.
                         The results of the audit address the reliability of computer-
                         generated data applicable to our audit objective. An exit
                         conference was held on May 4, 2004.




Page 7                                      Objective, Scope, and Methodology
Appendix 2



                                     PRIOR REPORTS

  •   Audit of Department of Energy Contractor Occupational Injury and Illness Reporting
      Practices (IG-0404, May 1997). Management and operating contractors were not
      reporting all significant injuries and illnesses as required by Departmental or
      Occupational Safety and Health Administration (OSHA) guidelines. The underreporting
      occurred because contractor personnel did not obtain sufficient information relating to the
      injury/illness or they misinterpreted the OSHA recording requirements. As a result, the
      Department could not adequately manage its occupational safety program and ensure its
      facilities provided a safe work environment.

  •   Audit of Kaiser Engineers Hanford Company's Award Fee (WR-B-94-1, October 1993).
      The Department's Richland Operations Office did not properly evaluate Kaiser Engineers
      Hanford Company's performance. This was caused by Richland using performance data
      reported by Kaiser without verifying its accuracy. We found that Kaiser had not properly
      reported employee accidents, related injuries, and lost workdays. The audit demonstrated
      that Kaiser's safety program was not as effective as Kaiser had reported.




Page 8                                                                           Prior Reports
Appendix 3
______________________________________________________________________________
                     EXAMPLES OF CAIRS DATA ISSUES

The following table provides examples of inconsistent or inaccurate data in CAIRS for the
contractors where we performed detailed testing.

  Contractors       Examples of data discrepancies
Bechtel BWXT        • In 2002, the contractor reported 463 days away from work while the CAIRS database
Idaho                 only listed 166.
                    • In 2002, the contractor reported 38 lost workday cases while CAIRS listed only 30.
                    • In the first quarter of 2003, the contractor reported 64 days away from work while
                      CAIRS only listed 23.
Bechtel Jacobs      • In 2002, the contractor reported 167 days away from work while CAIRS listed 115.
                    • In 2000, the contractor reported 10 recordable cases; however, only 9 appeared in
                      CAIRS.
                    • In 2002, the contractor reported 5 lost workday cases while CAIRS listed 4.
Bechtel National,   • In 2002, the contractor reported 1,113 days of restricted work activity while CAIRS
Inc.                  listed 552.
Bechtel Savannah    • No discrepancies were noted.
River
BWXT Y-12           • In 2002, the contractor reported 1,255 days away from work and CAIRS listed 1,100.
                    • In 2002, the contractor reported 39 lost workday cases while CAIRS listed 35.
                    • In 2000, the contractor reported 1,925 days away from work while CAIRS listed
                      only 1,644.
BNFL-ETTP           • In 2000, the contractor reported 109 days of restricted work activity while CAIRS
                      listed 83.
                    • In 2000, the contractor reported 25 days away from work while CAIRS listed 19.
                    • In 2002, the contractor reported 101 days away from work while CAIRS listed 146.
CH2M Hill Hanford   • In 2001, the contractor reported 169 days of restricted work activity while CAIRS
Group                 listed 112.
                    • In 2002, the contractor reported 404 days away from work while CAIRS listed 303.
                    • For the period January 1, 2000, to March 31, 2003, eight recordable workers'
                      compensation cases were not reported to the Department.
Fluor Hanford       • In 2000, the contractor reported 37 days away from work while CAIRS only listed 1.
                    • In 2002, the contractor reported 1,465 days of restricted work activity while CAIRS
                      listed 1,336.
                    • In first quarter of 2003, the contractor reported 264 days of restricted work activity
                      while CAIRS listed 299.
UT-Battelle         • In 2003, the contractor reported 270 days away from work while CAIRS listed 211.
Westinghouse        • In 2000, the contractor reported 1,035 days of restricted work activity while CAIRS
Savannah River        listed 1,155.
Company




Page 9                                                                        Example of Data Issues
Appendix 4




Page 10      Management Comments
Appendix 2 (continued)
__________________________________________________________________________




Page 11                                           Management Comments
                                                                    IG Report No. DOE/IG-0648

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
